office of inspector gener al


semiannual report

    to congress

    OCTOBER 1, 2010 to MARCH 31, 2011
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2


Introduction ...................................................................................................................................7


Activities .........................................................................................................................................9


Audits ...........................................................................................................................................12


Investigations................................................................................................................................19


Top Ten Management Challenges .............................................................................................25


Reporting Requirements ............................................................................................................30





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1

October 1, 2010 to March 31, 2011

EXECUTIVE SUMMARY

This is the 45th Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of NARA’s top ten management challenges is included as
well. The highlights of our major functions are summarized below.

                                            Audits
The Audit Division continued to examine the security of NARA’s Information Technology (IT)
systems, the development of NARA’s Electronic Records Archives (ERA) system, and assess
the economy and efficiency of NARA’s programs and operations. During the reporting period,
we issued the following audit reports and management letters.

Information Technology (IT)

   •	 Network Vulnerability Assessment and Penetration Testing. This audit found
      vulnerabilities in NARA’s IT systems allowing an intruder to intentionally or
      accidentally gain access to NARA’s network or systems. We identified several
      improvements which needed to be made to the configuration, upgrade, and patch
      management processes at NARA, and made 14 recommendations to correct these
      weaknesses. Management concurred with all the recommendations and initiated
      corrective actions. (OIG Report #11-02, dated November 8, 2010. See page 13. )

   •	 Controls over Inappropriate Personal Use of the Internet. Controls over internet
      usage are inadequate, and NARA employees continue to access prohibited material.
      NARA has worked to monitor and prevent inappropriate internet usage, and the filter
      application used is generally successful in blocking the majority of NARA staff who
      carelessly or inadvertently attempt to access inappropriate material. However, with little
      effort, NARA staff have been able to bypass the web filter. Further, while the filter
      maintains a record of all NARA staff internet usage, the limited amount of information
      reviewed and analysis conducted by NARA allowed excessive personal and
      inappropriate use to go undetected or unaddressed. Our audit identified several needed
      improvements, and made five recommendations to more thoroughly ensure internal
      controls are enforced and risks are minimized. Management concurred with the
      recommendations. (OIG Report #11-10, dated March 9, 2011. See page 13.)

   •	 NARANET Server Upgrade Project. We audited NARA’s project to upgrade the
      server hardware and software infrastructures of the current NARANet system installed
      across NARA. This upgrade was necessary because the current system was at risk of
      failure due to outdated hardware and unsupported software. Our review found this
      project was not adequately managed and monitored to ensure requirements were met in
      the most economic and efficient manner. Planning was not adequate, and critical
      stakeholders were not included in the decision to continue with Novell. There was no
      comprehensive analysis of alternatives, and other platforms which could have improved
      productivity and increased efficiencies were not fully considered. Finally, monthly
      status reports used to monitor the project did not accurately reflect the full cost and risks.
      To mitigate these risks and prevent similar occurrences, we made seven

SEMIANNUAL REPORT TO CONGRESS                                                               Page 2
October 1, 2010 to March 31, 2011
EXECUTIVE SUMMARY

       recommendations to aid in the completion of this project and improve NARA’s IT
       Investment Management Process. Management concurred with the recommendations.
       (OIG Report #11-06, dated November 30, 2010. See page 14.)

   •	 NARA’s Work-At-Home System (WAHS). The OIG initiated follow-up work to the
      Audit of NARA’s Work at Home System (OIG Audit Report No. 09-15) due to concerns
      about the management of RSA tokens, the hardware devices providing two-factor
      authentication for remote access to NARA’s IT systems. However, during the audit
      substantial improvements were made in token management. We made several
      suggestions, and encouraged NARA to consider using acknowledgement statements for
      token holders to accept the responsibility for security and following all organizational
      policies for remote access, as suggested by the National Institute of Technology and
      Standards (NIST). (Audit Memorandum #11-09, dated January 31, 2011. See page 15.)

Electronic Records Archives (ERA)

   •	 ERA Lacks Ability to Search Records’ Contents. ERA will not allow users to search
      the content of the full inventory of public electronic records ERA will store. However,
      NARA will manually select certain records to copy to the Online Public Access interface
      to allow full content searching. Aside from this select group, the default will be that
      ERA only allows users to locate records by searching through metadata and descriptions
      generated about the records. In a computer system that does not search the content of
      records, the record descriptions take on additional importance as the only searchable
      narrative of the record’s contents. However, as ERA has now been set-up, such
      descriptions will not be automatically generated by the system, but instead must be done
      manually. Considering the massive amount of data expected to be put into the system,
      such a manual process will invariably create substantial, perhaps insurmountable,
      bottlenecks. (Management Letter #11-08, dated January 5, 2011.)

   •	 Defense Contract Audit Agency (DCAA) Audits. The Defense Contract Audit
      Agency (DCAA) reviewed contractor invoices submitted for work on ERA. The reviews
      consisted of verifying direct labor charges, subcontractor labor charges, other direct
      costs, and overhead. DCAA assists with this effort because of their experience with
      performing this type of review and their access to contractor records. DCAA issued
      eight audit reports, none of which contained any significant findings. (DCAA Audit
      Report Numbers 6271-2011N25000001-002, 6271-2010N25000001-013 and 6271­
      2010N25000001-014 dated October 22, 2010; DCAA Audit Report Numbers 6271­
      2010N17900006, 6271-2010N17900003, and 6271-2010N17900004, 6271­
      2010N17900005 and 6271-2010N17900007 dated March 14, 2011.)

Programs and Operations

   •	 NARA’s Security Guard Contract for Archives I and II. The contractor was not
      following the firearm qualification requirements of the contract; scenario test and
      exercises were not conducted to assess security officer’s response to real-world type
      situations; and the contractually required physical fitness program was not in place to

SEMIANNUAL REPORT TO CONGRESS                                                            Page 3
October 1, 2010 to March 31, 2011
EXECUTIVE SUMMARY

       ensure officers remained physically fit to be able to perform all the duties required of the
       job. We made seven recommendations to assist NARA in administration and oversight
       of the contract and management concurred. (OIG Report #11-05, dated February 18,
       2011. See page 15.)

   •	 Oversight of Selected Grantees’ Use of Grant Funds. NARA does not employ a
      formal structured or systematic risk management approach to monitoring grants. As a
      result, NARA’s grant program is at risk of waste and abuse. Grantees reviewed were not
      always following grant regulations or the intent of their grant contracts, and they did not
      always use grant funds as intended. Our review of a sample of active and closed grants
      resulted in questioned costs of $789,479, and funds to better use of $434,589. We made
      four recommendations to assist management in improving program stewardship, and
      management concurred. (OIG Report #11-03, dated February 16, 2011. See page 16.)

   •	 NARA’s Photocopier Security. We performed this audit to determine if appropriate
      security measures were in place to safeguard and prevent inappropriate release of
      sensitive information and personally identifiable information (PII) residing on NARA
      photocopiers containing hard drives. We found opportunities existed to strengthen
      controls to ensure photocopier hard drives are protected from potential exposure, and
      made seven recommendations to assist NARA in providing appropriate administrative,
      technical, and physical safeguards over sensitive information and PII. Management
      concurred with all the recommendations. (OIG Report #11-07, dated March 22, 2011.
      See page 16.)

   •	 Movement of Freight. This audit was initiated as a result of a FY 2007 investigation by
      the OIG where a NARA employee was indicted for theft of government property and
      conspiracy to embezzle $958,280 from the United States. The audit sought to determine
      if controls are effective and efficient to ensure NARA obtains the best value and most
      economical prices for the movement of freight. Our review disclosed NARA has taken
      several significant steps to improve controls since FY 2007. We made three
      recommendations to further assist NARA in enhancing controls in freight management,
      most notably in the area of separation of duties. Management concurred with all the
      recommendations. (OIG Report #11-01, dated November 3, 2010. See page 17.)

   •	 NARA’s Fiscal Year 2010 Financial Statements. Cotton & Company LLP (C&C) was
      contracted to audit NARA’s consolidated balance sheets as of September 30, 2010, and
      the related statement of net cost, changes in net position and budgetary resources. For
      the fifth year in a row NARA received an unqualified opinion on their financial
      statements. C&C reported one significant deficiency in internal control over financial
      reporting in Information Technology, resulting in four recommendations. C&C
      disclosed no material weaknesses, and no instances of noncompliance with certain
      provisions of laws and regulations. (OIG Report #11-04, dated November 26, 2010. See
      page 17.)




SEMIANNUAL REPORT TO CONGRESS                                                              Page 4
October 1, 2010 to March 31, 2011
EXECUTIVE SUMMARY

                                      Investigations

During this reporting period, the Office of Investigations (OI) opened eight investigations and
closed 19 investigations, four of which are closed pending an administrative response from
NARA. The OI also received 46 complaints and closed 51 complaints, six of which are closed
pending an administrative response from NARA. More than 1,100 NARA holdings were
recovered during the period. The OI worked with the IRS and the Naval Criminal Investigative
Service, as well as the Offices of Inspectors General at the Veterans Administration and the
Government Printing Office. The OI also worked with a number of local and state law
enforcement entities to include: Office of the States Attorney in Cook County, Illinois, DC
Metro Police Department, Montgomery County Maryland Police Department and the Maryland
States Attorney’s Office. At the close of the period, there remained 56 open complaints and 23
open investigations.

The OI completed investigations in a variety of areas including the following:

   •   Security Guard Misconduct
   •   Improper Use of Government Computer
   •   Improper Government Credit Card Use
   •   Threatening Phone Calls
   •   Procurement Fraud
   •   Contract Fraud
   •   Theft of Government Property
   •   Obstruction of Federal Audit
   •   Destruction of Federal Records
   •   Mishandling of Classified Material
   •   Stolen/Missing Records

The Office of Investigations is presently staffed with six 1811 series Special Agents, an
Investigative Archivist, a Computer Forensic Analyst, and an Assistant Inspector General for
Investigations. This team provides investigative coverage to an approximately 3,000-person,
44-facility, nationwide agency which includes the Presidential library system. The OI conducts
both responsive and proactive investigations in order to support our statutory mission. During
the period, the OI began proactive work on a contract fraud initiative, as well as a holdings
protection assessment. Additionally, the OI closed two procurement fraud cases preventing $1.2
million in the procurement of grey market and counterfeit computer equipment by NARA. At
present our law-enforcement authority is through special deputation from the U.S. Marshals
Service. Our application to the Attorney General for statutory law enforcement authority is
under review at the Department of Justice. We are based in NARA’s College Park, Maryland
facility and staff a satellite office in NARA’s Washington, D.C. facility




SEMIANNUAL REPORT TO CONGRESS                                                           Page 5
October 1, 2010 to March 31, 2011
EXECUTIVE SUMMARY

                   Management Assistance and Other Work

•	 OIG personnel discovered the contractor developing the Electronic Records Archive (ERA)
   had been issued a patent on the ERA unbeknownst to NARA management. NARA
   management was notified and is currently taking steps to protect the government’s interests.

•	 Referred one case from the Archival Recovery Team to the Office of General Counsel
   pursuant to NARA Directive 1462.

•	 Members of the Office of Investigations, and particularly, the Archival Recovery Team, met
   routinely with staff from NARA’s Holdings Protection Program in an effort to marshal our
   collective resources to discover new avenues and approaches to providing adequate security
   and control of our nation’s historical records.

•	 Counsel to the IG assisted the Information Security Oversight Office (ISOO) in the
   implementation of the Reducing Over-Classification Act, coordinating actions between
   ISOO and affected Inspectors General.

•	 Responded to multiple requests for OIG records under the Freedom of Information Act

•	 Assisted NARA in an agency effort to stem illegal access to freight cars containing NARA
   material.

•	 Reviewed legislative proposals and provided feedback to appropriate entities and reviewed
   newly passed legislation for its affect on NARA and the NARA OIG.

•	 Provided comment and input into several NARA directives covering a variety of topics such
   as access control at facilities and reports of survey on lost or missing property.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 6
October 1, 2010 to March 31, 2011
INTRODUCTION

       About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 4.1 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains nearly 600,000 artifact
items and more than 130 terabytes of electronic records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2010, NARA had 39
million online visits in addition to hosting 3.6 million traditional museum visitors, all while
responding to 1.5 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2011, NARA was appropriated an annual budget of approximately $434
million and 3,380 (estimated) Full-time Equivalents (FTEs), including appropriations of $339
million for operations, $72 million for the Electronic Records Archives (ERA) program, $11.8
million for repairs and restorations of facilities, and $6.98 million for grants. NARA operates 44
facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 7
October 1, 2010 to March 31, 2011
INTRODUCTION

                 About the Office of Inspector General (OIG)

The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items belonging in our
holdings, while safely providing the American people with the opportunity to discover, use and
learn from this documentary heritage. We accomplish this by providing high-quality, objective
audits and investigations; and serving as an independent, internal advocate for economy,
efficiency, and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

•	 assesses the effectiveness, efficiency, and economy of NARA programs and operations;

•	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies;

•	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

•	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
In FY 2010, a separate appropriation was established for the OIG in compliance with the
Inspector General Reform Act of 2008. Previously funds for the OIG came from NARA’s
Operating Expenses appropriation. For FY 2011, Congress provided $4.1 million for the OIG,
including resources for 23 FTEs. At the beginning of the period, the OIG had one audit and one
special agent vacancy to fill. During the period the special agent position was filled, but the
auditor position remains vacant. Currently the OIG has one Inspector General, one support
staff, 10 FTEs devoted to audits, nine FTEs devoted to investigations, and a counsel to the
Inspector General.



SEMIANNUAL REPORT TO CONGRESS                                                           Page 8
October 1, 2010 to March 31, 2011
ACTIVITIES

             Involvement in the Inspector General Community

Counsel of Inspectors General on Integrity and Efficiency (CIGIE)
Investigations Committee
The IG served as a member of the CIGIE Investigations Committee. The mission of the
Investigations Committee is to advise the IG community on issues involving investigative
functions, establishing investigative guidelines, and promoting best practices.

Assistant Inspectors General for Investigations (AIGI) Committee
The AIGI served as vice-chair to the AIGI Committee, which serves as a standing subcommittee
to the CIGIE Investigations Committee. The AIGI Committee provides guidance, assistance and
support to the CIGIE Investigations Committee in the performance of its duties. In addition, the
AIGI Committee serves as a conduit for suggestions, issues and concerns that affect the OIG
investigations community to the CIGIE Investigations Committee for appropriate action.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel continues to be an active member of the CCIG, and communicated regularly
with fellow members. The CCIG provides a rich environment where legal issues can be raised
and interpretations can be presented and reviewed with an experienced network of OIG lawyers.
During regular meetings multiple topics were discussed and addressed.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 9
October 1, 2010 to March 31, 2011
ACTIVITIES

                                    Peer Review Information

Peer Review of the Appalachian Regional Commission’s OIG Audit
Organization
In accordance with the Government Accountability Office’s Government Auditing Standards
(GAS) and CIGIE guidelines, we reviewed the system of quality control for the audit
organization of the Appalachian Regional Commission Office of Inspector General (ARC OIG)
in effect for the year ended September 30, 2010. A system of quality control encompasses an
OIG’s organizational structure and the policies adopted and procedures established to provide it
with reasonable assurance of conforming to GAS.

During the course of the review, ARC OIG notified us that they did not perform any audits
during the period under review, but rather performed inspections. It is ARC OIG’s current
policy not to perform audits or any other work under generally accepted government auditing
standards because of its staff size. We took this into consideration in rendering our opinion on
the ARC OIG quality control program. We concluded, except for the scope limitation cited, the
system of quality control in effect for the two years ended September 30, 2010 has been suitably
designed to provide reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. (OIG Audit Report #11-11, dated
March 18, 2011)


Peer Review of NARA OIG’s Audit Organization
NARA OIG’s audit organization was last peer reviewed by the Library of Congress in April of
2008. There are no outstanding recommendations from this review.

Peer Review of NARA OIG’s Office of Investigations
NARA OIG’s Office of Investigations was last peer reviewed by the National Science
Foundation in May of 2008. There are no outstanding recommendations from this review.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 10
October 1, 2010 to March 31, 2011
ACTIVITIES

                          Response to Congressional Items

Request for Freedom of Information Act (FOIA) Request Information
We provided the Committee on Oversight and Government Reform information on FOIA
requests made to the OIG for the preceding five years. A spreadsheet was provided containing
(with limited exceptions) the (a) name of the requestor; (b) the date of the request; (c) a brief
description of the documents or records sought; (d) any tracking number assigned by the OIG;
(e) date the request was closed; (f) whether any records were provided in response and (g) any
additional identification number or code assigned by the OIG for internal use.

Request for Information on Non-Public Cases
In accordance with a written request, we provided Senator Charles Grassley and Senator Tom
Coburn with a biannual report on all closed investigations, evaluations, and audits that were
not disclosed to the public.

Federal Information Security Management Act (FISMA) Report
As required by the Federal Information Security Management Act (FISMA), the OIG completed
an independent assessment as to the quality of NARA’s information security program. Our
review focused on NARA’s performance in the following FISMA-related areas outlined by the
Office of Management and Budget (OMB): certification and accreditation (C&A); configuration
management; security incident management; security training; remediation/plans of actions and
milestones (POA&M); remote access; identity management; continuous monitoring; contingency
planning; and contractor oversight.

NARA needed significant improvements in each of these ten program areas to be consistent with
FISMA and National Institute of Standards and Technology (NIST) requirements. Specifically,
previously identified weaknesses continued in NARA’s management of their C&A, POA&M,
incident response, and contingency planning processes. Agency-wide improvements were also
needed in NARA’s remote access and identity management programs. Further, a continuous
monitoring program had not been fully implemented and was still in its infancy at NARA.
During fiscal year 2010, progress was made in NARA’s management of security configurations
and security training. However, additional work was still needed to meet NIST requirements.
Finally, although NARA policy required contractor systems to meet the same requirements as
agency-owned systems, we found instances of contractor systems not meeting all requirements.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 11
October 1, 2010 to March 31, 2011
AUDITS

                                                  Overview

This period, we issued:

    • ten final audit reports, and

    • one management letter. 1


We completed fieldwork on the following audits:

    •	 an audit of OMB’s Trusted Internet Connections Initiative to determine whether NARA
       is prepared to meet the goals and objectives of the initiative;

    •	 an audit of Premium and Foreign Travel to determine whether this type of travel is
       appropriately authorized and properly managed in accordance with agency and federal
       travel regulations; and

    •	 an audit of NARA’s Drug Testing Program to determine whether controls are in place to
       facilitate an effective drug testing program.

We continued work on the following assignments:

    •	 a follow-up audit of the Process of Safeguarding and Accounting for Presidential Library
       Artifacts to evaluate NARA efforts to implement recommendations contained in OIG
       Audit Report 08-01, and to determine whether actions taken provide reasonable assurance
       management controls are adequate to safeguard and account for library artifacts;

    •	 an audit of the Management of Records at the Washington National Records Center
       (WNRC) to evaluate and assess the adequacy of controls over the management and
       handling of records;

    •	 an audit of NARA’s Classified Systems to determine whether NARA’s classified systems
       are properly managed and adequately secured; and

    •	 an audit of NARA’s Telework Program to determine whether NARA is fully capitalizing
       on the identified benefits of telework and administering its telework program in
       accordance with federal regulation and NARA policy.




1 Management letters are used to address issues which need to be quickly brought to the Archivist’s or
management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                            Page 12
October 1, 2010 to March 31, 2011
AUDITS

                                     Audit Summaries

Network Vulnerability Assessment and Penetration Testing
The OIG contracted with Clifton Gunderson LLP (CG) to perform vulnerability assessment and
penetration testing of NARA’s internal and external network infrastructure and environment.
The overall objective of the audit was to assess the chances an intruder could intentionally or
accidentally gain access to NARA’s network or systems. This assessment helps the effectiveness
of NARA’s information systems security in preventing and detecting unauthorized external and
internal access to logical assets, and provides a snapshot evaluation of NARA’s security posture
and potential vulnerabilities that should be remediated.

The audit found vulnerabilities in the environment could result in an intruder intentionally or
accidentally gaining access to NARA’s network or systems. CG validated that several
vulnerabilities identified could be used to potentially compromise NARA’s network, and in
several cases, actually exploited vulnerabilities to obtain unauthorized access or escalation of
user privileges. CG identified several improvements to be made to the configuration, upgrade,
and patch management processes at NARA and made 14 recommendations to correct these
weaknesses. Management concurred with all the recommendations and initiated corrective
actions. (OIG Report #11-02, dated November 8, 2010.)

Controls over Inappropriate Personal Use of the Internet

The objective of this audit was to determine whether controls were adequate in preventing and
deterring NARA staff from using their government-assigned workstations to access inappropriate
internet material. Specifically, our review focused on whether NARA employees were in
compliance with directives restricting access to inappropriate web sites, and whether controls
and administrative processes in place effectively prevent NARA staff from accessing these sites.

Our audit disclosed that, although NARA has invested in tools and implemented procedures to
monitor and prevent inappropriate internet usage by its staff, controls remain inadequate and
NARA employees continue to access prohibited material. Specifically, the audit found NARA:
(a) is overly confident in the effectiveness of its web filter application, (b) does not fully utilize
the features of its web filter application, and (c) has not established adequate procedures to
consistently enforce its policy on inappropriate internet usage. As a result, NARA is at risk for
decreased public trust, reduced employee productivity, legal liability, and degradation of network
performance.

We identified a number of methods used by NARA staff to bypass its web filter application, as
well as specific features of the web filter application that were not fully utilized in preventing
these bypass methods. In extreme cases, individuals at NARA accessed inappropriate material
for multiple hours per day and thousands of different explicit websites during the review period.
Other NARA employees used web proxies and adult forums to access websites with
inappropriate content. Further, the audit discovered the web filter application in use by NARA
was not able to handle the amount of internet traffic flow, leading to an overload of the
application and intermittent web filter failures.

SEMIANNUAL REPORT TO CONGRESS                                                                Page 13
October 1, 2010 to March 31, 2011
AUDITS

We made five recommendations intended to strengthen the effectiveness of the controls over the
staff’s access to inappropriate internet material and allow management to more adequately
enforce its policy on proper internet usage. Management concurred with each of the
recommendations included in the report. (OIG Report #11-10, dated March 9, 2011.)


NARANET Server Upgrade Project

Our objective was to determine whether the NARANet Server Upgrade (NSU) Project was
developed in accordance with NARA requirements, and whether system development was
adequately managed and monitored to ensure project requirements were met. The purpose of the
NSU Project was to upgrade the server hardware and software infrastructures across NARA,
which were based on a Novell environment. The system in place was at risk of failure due to
outdated hardware and unsupported software.

We found this project was not adequately managed and monitored to ensure requirements were
met in the most economic and efficient manner. Specifically, while the project development met
most of the NARA requirements, planning was not adequate and critical stakeholders were not
included in the decision to continue with Novell. Further, a comprehensive analysis of
alternatives was not completed. Other platforms which could have improved productivity and
increased efficiencies were not fully considered during project planning. Finally, monthly status
reports used by management to monitor the project did not accurately reflect the full cost and
risks of the project.

As a result, the best alternative to maximize value or minimize risk may not have been chosen,
and limited resources may have been wasted. Further, opportunities were missed to switch to a
new environment. Had NARA considered an alternative environment or platform, such as
Microsoft, only one upgrade or transition would have been necessary. Instead, NARA was
upgrading its Novell environment with the possibility of needing to transition to another
platform, resulting in the expenditure of additional funds. With adequate planning, NARA could
have avoided this $2.9 million upgrade of Novell products.

Finally, unnecessary risks were placed on NARA’s IT infrastructure and alternative solutions
were limited. Specifically, the operational hardware platforms were past the end of their useful
lifecycle, thereby creating an increased risk for hardware failures and consequent disruptions of
business services such failures entail. This unstable environment limited NARA’s ability to seek
other alternatives.

To mitigate these risks and prevent similar occurrences, we made seven recommendations to aid
in the completion of the project and to improve management of NARA’s IT Investment
Management Process. Management concurred with all seven recommendations. (OIG Report
#11-06, dated November 30, 2010.)




SEMIANNUAL REPORT TO CONGRESS                                                            Page 14
October 1, 2010 to March 31, 2011
AUDITS

NARA’s Work-At-Home System
In 2010, the OIG initiated follow up audit work to the previously issued Audit of NARA’s Work
at Home System (WAHS), (OIG Audit Report No. 09-15), as a result of concerns relating to
RSA tokens, the hardware devices used by NARA to provide two-factor authentication for
remote access through the WAHS. Specifically, we were concerned with the utilization and
associated cost of these tokens managed and paid for by NARA. Previously, we found NARA
paid a yearly maintenance cost of $215,000 for 3,000 RSA tokens, even though only a
significantly smaller number, approximately 50 tokens, were distributed and being used.
However, during the audit, improvements were made in the management of these tokens. For
example, the number of tokens paid for by NARA was lowered to a more realistic number and
80% of the tokens were distributed to users. Also, former employees were no longer assigned
RSA tokens and improvements were made in NARA’s account management and inventory of
tokens. Finally, users were provided with training to help identify social engineering techniques
used to obtain sensitive or confidential information such as user-created personal identification
numbers (PINs).

Therefore, we suggested NARA continue to monitor the usage of RSA tokens, terminate and
collect tokens of former employees, disable lost or stolen tokens, and provide continual
reminders of the risks and tactics of social engineering. Also, we encouraged NARA to consider
using acknowledgement statements, for token holders to accept the responsibility for ensuring
security and following all organizational policies for remote access, as suggested by the National
Institute of Technology and Standards (NIST). (Audit Memorandum #11-09, dated January 31,
2011)

NARA’s Security Guard Contract for Archives I and II

We audited NARA’s $6.5 million contract for providing an armed, uniformed protective security
force 24 hours per day, seven days a week for the physical protection of the National Archives
properties located in Washington, D.C. and College Park, Maryland. The purpose of this audit
was to determine whether NARA was properly administering the contract, and whether the
contractor was performing in accordance with contract requirements.

We found additional oversight was needed in several areas. For example, security officers were
not following the firearm qualification requirements of the contract. Although officers must
have a Maryland handgun permit and DC Special Police Officer certification, the firearm
qualification used to qualify for these designations did not meet the level of skill required by the
contract. Therefore, NARA was not receiving the level of service contracted for, and security
officers may not be as proficient in the use of firearms as needed to stand post at NARA.

We identified additional areas of concern related to testing and training of the security officers
and the physical fitness of the officers. Specifically, scenario tests and exercises were not
conducted to assess security officer’s response to real-world type situations. By not conducting
these tests, NARA is missing an opportunity to determine whether the security officers are
familiar with their post orders and emergency action procedures and whether additional training

SEMIANNUAL REPORT TO CONGRESS                                                                Page 15
October 1, 2010 to March 31, 2011
AUDITS

is needed. Further, the contractually-required physical fitness program was not in place for
ensuring officers remained physically fit to be able to perform all the duties required of the job.
We made seven recommendations for improvement. Management concurred with each
recommendation. (OIG Report #10-15, dated June 23, 2010.)

Oversight of Selected Grantees’ Use of Grant Funds

The objective of this audit was to determine whether management controls were adequate to
ensure (1) grants were properly administered, (2) grant goals and objectives were met, and (3)
grant funds were adequately accounted for and appropriately used. Audit procedures focused on
evaluating the system of management controls over grant oversight and included an evaluation of
whether National Historical Publication and Records Commission (NHPRC) grantees used grant
funds in accordance with federal regulations.

While we found NHPRC has established adequate management controls to ensure grant goals
and objectives were identified and met, NHPRC did not employ a formal structured or
systematic risk management approach to monitoring grants. As a result, NHPRC cannot
adequately: (1) determine whether a grantee has the ability to administer, monitor, and account
for grant funds prior to the award of a grant; (2) determine how frequently to perform a grant
review, recognize how comprehensive a grant review should be, and identify potential troubled
grants; and (3) mitigate risk and request appropriate refunds associated with grantees not meeting
their cost share obligations. As a result of these conditions, NHPRC’s grant program is at risk of
waste and abuse. Our review of the active and closed grants assessed during this audit resulted
in questioned costs of $789,479, and funds put to better use of $434,589. In addition, the audit
identified that grantees were not always following grant regulations, the intent of the grant
contract, and did not always use grant funds as intended. We made four recommendations to
assist management in improving program stewardship. Management concurred with our
recommendations. (OIG Report #11-03, dated February 16, 2011).

NARA’s Photocopier Security
The objective of this audit was to determine if appropriate security measures were in place to
safeguard and prevent inappropriate release of sensitive information and Personally Identifiable
Information (PII) residing on NARA photocopiers containing hard drives. Specifically, our
review focused on whether (1) NARA used photocopiers containing hard drives capable of
retaining sensitive information, and (2) actions taken by NARA to mitigate risks posed by the
potential exposure of this sensitive information were adequate.

Our audit found opportunities exist to strengthen controls to ensure photocopier hard drives are
protected from potential exposure. Specifically, the audit found (1) NARA lacks appropriate
controls to ensure all photocopiers across the agency are accounted for and that any hard drives
residing on these machines are tracked and properly sanitized or destroyed prior to disposal; (2)
there are no policies documenting security measures to be taken for photocopiers utilized for
general use nor are there procedures to ensure photocopier hard drives are sanitized or destroyed
prior to disposal or at the end of the lease term; and (3) photocopier lease agreements and
contracts did not include a “keep disk” or similar clause as required by NARA’s policy. As a

SEMIANNUAL REPORT TO CONGRESS                                                                Page 16
October 1, 2010 to March 31, 2011
AUDITS

result of the lack of accountability and controls, NARA is at risk of inappropriate release of
sensitive information and PII data that may be on photocopier hard drives. We made seven
recommendations to assist in providing administrative, technical, and physical safeguards over
sensitive information and PII that may be on photocopier hard drives. Management concurred
with the seven recommendations. (OIG report 11-07, dated March 22, 2011

Movement of Freight Shipments
The review was initiated as a result of a fraud investigation performed by the OIG Office of
Investigations. Specifically, in FY 2007, a Facilities and Personal Property Management
Division (NAF) employee was indicted for theft of government property and conspiracy to
embezzle $958,280 from the United States. The employee was responsible for large
transportation procurements and often circumvented NARA controls. The employee had
authority to set up transportation service orders and to approve invoices for payment. The
employee commonly used the same vendors over and over again. Management officials
discarded other employees’ complaints about this employee not following NARA controls.

The objective of the audit was to determine if controls are effective and efficient to ensure
NARA obtains the best value and most economical prices for the movement of freight. We
found NARA has taken several significant steps to improve controls since FY 2007. Controls
over separation of duties were implemented. The person requesting freight shipments is not the
same person setting up the transportation order in the General Services Administration’s (GSA)
Transportation Management Services System, and is also different from the person authorized to
approve freight invoices for payment. A NAF manager tracks all transportation transactions
from inception through payment, reviews invoices after U.S. Transportation Consultants (USTC)
audits the invoice, and reviews transactions to ensure vendors are rotated. The results of our
testing indicate the separation of controls over requesting freight and shipping service, setting up
the obligation, and approving payment are working effectively. The transactions tested were
appropriately pre-audited by USTC before payment and reported to GSA in the required
quarterly reports. However, we could not come to the same conclusion in our test work in
determining whether NAF selected the Transportation Service Provider (TSP) that provided the
best value to the government. NAF is working to track reasons why TSP’s with a lower price
were not selected.

Since the investigation, NAF has implemented stronger controls over freight and shipping. We
believe NARA is on the right track in continuing to improve controls over transportation
services. We made three recommendations which, when implemented by management, will
assist the agency in enhancing controls in freight management. (OIG Report #11-01, dated
November 3, 2010.)

NARA’s Fiscal Year 2010 Financial Statements
Cotton & Company LLP (C&C), a public accounting firm, audited NARA’s Consolidated
Balance Sheets as of September 30, 2010 and the related Statement of Net Cost, Changes in Net
Position and Budgetary Resources, for the year then ended.


SEMIANNUAL REPORT TO CONGRESS                                                               Page 17
October 1, 2010 to March 31, 2011
AUDITS

C&C issued NARA an unqualified opinion on NARA’s FY 2010 financial statements. This is
the fifth year in a row NARA received an unqualified opinion. For FY 2010, C&C reported one
significant deficiency in internal control over financial reporting in the area of Information
Technology resulting in four recommendations that, if implemented, should correct the matters
reported. C&C disclosed no material weaknesses and no instances of noncompliance with
certain provisions of laws and regulations. Management concurred with the recommendations.

We monitored C&C’s performance of the audit to ensure it is conducted in accordance with the
terms of the contract and in compliance with Government Accountability Office (GAO)
Government Auditing Standards and other authoritative references, such as OMB Bulletin No.
07-04, Audit Requirements for Federal Financial Statements. We are involved in the planning,
performance, and reporting phases of the audit through participation in key meetings, discussion
of audit issues, and reviewing of C&C’s work papers and reports. Our review disclosed no
instances wherein C&C did not comply, in all material respects, with the contract or Government
Auditing Standards. (OIG Report #11-04, dated November 26, 2010.)




SEMIANNUAL REPORT TO CONGRESS                                                           Page 18
October 1, 2010 to March 31, 2011
INVESTIGATIONS

                                Investigations Overview

During this reporting period, the Office of Investigations (OI) opened eight investigations and
closed 19 investigations, four of which are closed pending an administrative response from
NARA. The OI also received 46 complaints and closed 51 complaints, six of which are closed
pending an administrative response from NARA. More than 1,100 NARA holdings were
recovered during the period. The OI worked with the IRS and the Naval Criminal Investigative
Service, as well as the Offices of Inspectors General at the Veterans Administration and the
Government Printing Office. The OI also worked with a number of local and state law
enforcement entities to include: Office of the States Attorney in Cook County, Illinois, DC Metro
Police Department, Montgomery County Maryland Police Department and the Maryland States
Attorney’s Office. At the close of the period, there remained 56 open complaints and 23 open
investigations.


                Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
A former NARA employee plead guilty to theft of public money and was sentenced to 15 months
in prison and full restitution for his role in a scheme to embezzle $958,280 from NARA. His co­
conspirator, a former NARA contractor, also plead guilty and received the same sentence during
the previous reporting period.

Mishandling of Classified Documents
Continuing security violations at the Washington National Records Center (WNRC) prompted
the Office of Inspector General to initiate an investigation in the interest of National Security.
Pursuant to the completion of an inventory at NARA’s Suitland facility of Top Secret and/or
Restricted Data materials, 81 boxes of this material remain missing. This investigation was
closed subject to continuing updates regarding the recovery of remaining material.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold equipment in
violation of the contract terms. The case was ultimately declined for prosecution, but resulted in
the prevention of a $1.1 million procurement for grey market and counterfeit IT equipment. The
case is being prepared for referral to NARA for a suspension/debarment determination.

Grey Market Server Components
NARA’s acquisitions division notified OIG that Hewlett Packard (HP) server components
procured from a vendor had been identified as potentially grey market products in violation of
NARA’s contract. Ninety-six of 121 pieces were identified by OIG as grey market. The
remaining pieces could not be identified. The contract was terminated. The Computer Crime
and Intellectual Property Section of the U.S. Department of Justice declined prosecution, but the
investigation prevented a $91,000 fraudulent procurement.




SEMIANNUAL REPORT TO CONGRESS                                                                Page 19
October 1, 2010 to March 31, 2011
INVESTIGATIONS

False Billing
The subject company was initially investigated for allegations of a bid-rigging scheme to steer
government contracts to the subject company and its alleged co-conspirators. While that charge
was not substantiated and prosecution was declined by an Assistant United States Attorney, a
civil case remains pending for an outstanding debt of more than $250,000 owed to NARA.

Alienated Lincoln Document
An endorsement by President Lincoln on a letter was offered for sale by an autograph dealer.
The document included markings indicating it was a federal record. The markings were
consistent with a NARA record group, and the OIG’s Archival Recovery Team referred this case
to NARA recommending it be recovered and returned to NARA’s holdings. The Archival
Recovery Team is working with NARA’s Office of General Counsel to recover the document.

Harassing Phone Calls
A NARA employee received multiple threatening phone calls from an individual. The subject
was contacted but refused to stop making the calls. The local jurisdiction accepted the case for
prosecution and the subject was subsequently arrested, but failed to show for her court
appearance. She was found guilty in abstentia and an arrest warrant was issued. Upon her arrest,
the subject was placed in pretrial confinement. Because her pretrial confinement reached an
equivalent duration of the statutory maximum in the local jurisdiction, the judge dismissed the
case.

Inappropriate Security of NARA System Passwords
During the course of routine audit work, OIG personnel discovered a file containing passwords
to NARA system servers. NARA took steps to prevent future disclosure of such a file and
indicated the password policy was under review and subject to future changes to prevent
recurrence of such an incident.

Veteran Record Fraud
A local chapter of the Military Order of the Purple Heart alleged an individual was
misrepresenting his service record. In an attempt to verify his record, the individual fabricated
NARA letterhead and a NARA record form. This case is being investigated jointly with the
Veterans Administration OIG, and remains open and ongoing.

Misconduct at Presidential Library Gift Shop
When there was a shortage of funds from a Presidential Library gift shop cash register, the gift
shop supervisor failed to notify library management and asked staff to contribute personal funds
to cover the shortage. An investigation substantiated theft was occurring at the gift shop, and a
subject, not the supervisor, was identified. The subject ultimately confessed to theft, and the
case was accepted for prosecution by the local district attorney’s office. Both the subject
employee and the supervisor were reprimanded.

Rape/Identify Theft
OIG joined with the Baltimore County Police Department in the investigation of a rape
allegation against a NARA employee. The rape allegation was subsequently disproved.


SEMIANNUAL REPORT TO CONGRESS                                                              Page 20
October 1, 2010 to March 31, 2011
INVESTIGATIONS

However, the subject employee corresponded with the alleged victim using another NARA
employee’s identity and inappropriately used a NARA computer. These parts of the case were
referred to NARA for administrative action. The subject was reprimanded for improper use of a
NARA computer.

Grand Jury Secrecy and Record Recovery
Potential grand jury and other federal records were inappropriately donated to an institution
outside of the federal government more than 30 years ago. These records were brought to
NARA’s attention by a researcher doing work on the particular subject matter at the outside
institution. The case was referred to the Department of Justice due to the potential of exposure
of grand jury information. NARA archivists reviewed the material and negotiation of terms for
the return of the material are underway.

Wrongful Access to IRS Records in Transit
The lock and seal on storage containers containing IRS records shipped to a NARA federal
records center were missing. There was no evidence the records in the container had been
damaged. While the investigation was ongoing a subsequent incident occurred. Investigation
revealed unknown persons were breaking into freight cars at a rail yard searching for
merchandise to steal and resell. The case was referred to NARA to implement tighter security of
these shipments. NARA changed to the use of a more sophisticated lock for the containers and
made incremental changes in the Statements of Work between NARA and the IRS and between
NARA and its respective shipping companies to prevent this from recurring.

Credit Card Theft
A NARA employee reported the theft of personal credit cards on NARA premises. While the
theft did occur, it could not be determined that it took place on NARA property. Two subjects
were arrested for using the stolen credit cards. The case was accepted for prosecution by the
local jurisdiction.
                             New Investigation Highlights
Employee Misconduct/Threats
A NARA employee inappropriately referenced a recent shooting incident in official email
correspondence and made a variety of veiled threats toward NARA. The case was referred to
NARA for appropriate administrative action. The employee was counseled.

Stolen Microfilm
A NARA employee inappropriately removed 152 microfilm rolls from NARA and stored them
in an assigned personal locker. The subject confessed to taking the microfilm, as well as two
NARA ledgers. The case was declined for criminal prosecution by the jurisdictional Assistant
United States Attorney. The subject was placed on administrative leave and subsequently
resigned in lieu of further administrative action.

Altered Lincoln Record
A researcher, known to have accessed a particular Lincoln pardon, confessed to altering the date
of the pardon accompanying Lincoln’s signature. The case was declined for criminal


SEMIANNUAL REPORT TO CONGRESS                                                             Page 21
October 1, 2010 to March 31, 2011
INVESTIGATIONS

prosecution because the act occurred outside of the statute of limitations for this offense. The
researcher was barred from NARA facilities.

Missing Presidential Photograph
Prints from a missing negative of a particular photograph of President Kennedy, which had been
kept by an official White House Photographer, were put up for sale in California by a private
filmmaker. Whereabouts of the negative are presently unknown, but it is believed to be NARA
property. This investigation remains open and ongoing.

Stolen NARA records
A former NARA employee is alleged to have stolen multiple NARA records while employed at
the Archives. Many of these records were recovered during the reporting period. The case has
been accepted for prosecution by the jurisdictional Assistant United State Attorney. The
investigation remains open and ongoing.

External Access of Child Pornography
A NARA employee was alleged to be accessing child pornography from his home computer by
an external law enforcement entity. An examination of the employee’s NARA computer found
no indication that child pornography was accessed from the workplace. The case has been
accepted by the jurisdictional Assistant United State Attorney and remains open and ongoing.

                      Other Office of Investigation Activity
Archival Recovery Team
During this period, the Archival Recovery Team (ART) fielded 17 complaints and opened four
investigations. Eleven complaints and one investigation were closed. In addition, six non­
criminal ART cases were referred to NARA for a recovery determination, or to external entities
of primary jurisdiction. At the close of the period, 25 ART complaints and seven ART
investigations remained open. During the period 1,152 NARA holdings were recovered.

   •	 Social Media: The ART facebook page reflected continued growth totaling nearly 1,400
      “friends” at the close of the reporting period. The site updates the public about upcoming
      shows and happenings with the ART, along with other newsworthy items about
      document thefts, investigations, and recoveries at NARA and other institutions
      worldwide. Visit the site at http://www.facebook.com/archivalrecoveryteam.

   •	 Other Media: The work of ART appeared in a variety of publications around the country
      during the period. Additionally, ART was featured in The Washington Post, on C-Span,
      and on National Public Radio. ART staff, along with the Inspector General, participated
      in a panel discussion on holdings security with the Inspectors General from the Library of
      Congress and the Smithsonian Institute, as well as NARA’s own Holdings Protection
      Team.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 22
October 1, 2010 to March 31, 2011
INVESTIGATIONS

   •	 Outreach: As part of the ART’s outreach program working with individuals and groups
      who may have interactions with historic records, Office of Investigations staff
      participated in the following shows:

       -- Papermania, Hartford, Connecticut
       -- The Show of Shows, Louisville, Kentucky
       -- Baltimore Arms Collector Show, Baltimore, Maryland
       -- The Civil War Show, Fredericksburg, Virginia
       -- The Civil War Symposium, Atlanta, Georgia

Computer Crimes Unit
During the reporting period, the Computer Crimes Unit (CCU) provided digital forensic support
to several criminal investigations, including:

   •	 The CCU participated in the execution of a search warrant during which several
      computers, external storage devices, and other digital equipment and media were seized.
      Ultimately, the CCU obtained and processed over three terabytes of digital evidence in
      support of this investigation. The examination of evidence in this matter is ongoing.

   •	 The CCU obtained, processed, and examined over 500 gigabytes of digital evidence from
      three computer workstations and a GroupWise email account in support of a Naval
      Criminal Investigative Service (NCIS) child pornography investigation.

   •	 The CCU provided support to two investigations being conducted by the Government
      Printing Office (GPO) OIG. In one case, the CCU obtained and examined over 300
      gigabytes of digital evidence from two laptop computers as part of an employee
      embezzlement investigation. In the other, the CCU copied subpoena response material
      related to a procurement fraud case in a forensically sound manner.

In addition to providing forensic support to investigations, the CCU also visited the Financial
Crime Enforcement Network (FinCEN) operated by the Department of the Treasury on several
occasions to run database searches related to criminal investigations. During the reporting period
a forensic examiner obtained the Certified Forensic Computer Examiner (CFCE) certification
offered by the International Association of Computer Investigative Specialists (IACIS).




SEMIANNUAL REPORT TO CONGRESS                                                             Page 23
October 1, 2010 to March 31, 2011
INVESTIGATIONS

                                        OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

   •   By telephone
       Washington, DC, Metro area: (301) 837-3500 

       Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

   •   By mail
       NARA OIG Hotline
       P.O. Box 1821

       Hyattsville, MD 20788-0821 

   •   By e-mail
       oig.hotline@nara.gov
   •   By online referral form
       http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition.

Where appropriate, referrals are made to the OIG audit staff, NARA management, or external
authorities. Hotline contacts are captured as complaints in the Office of Investigations. The
following table summarizes complaints received and Hotline activity for this reporting period:

                    Complaints received                                      46
                    Complaints closed pending response from NARA              6
                    Complaints closed final                                  45
                    Complaints open to Investigations                         3


                         Contractor Self Reporting Hotline
To comply with the self-reporting requirements in the Federal Acquisition Regulation, a web-
based form has been created to allow NARA contractors to satisfy the requirement they notify
the OIG, in writing, whenever the contractor has credible evidence that a principal, employee,
agent, or subcontractor of the contractor has committed a violation of the civil False Claims Act
or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or gratuity
violations in connection with the award, performance, or closeout of a contract or any related
subcontract. The form can be accessed through the OIG’s home page, for found directly at:
http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                              Page 24
October 1, 2010 to March 31, 2011
TOP TEN MANAGEMENT CHALLENGES

                                          Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

Based on Congressional interest, GAO conducted an evaluation of NARA’s Information Security
Program and NARA’s ability to effectively carry out its mission of overseeing the management
of Federal records while preserving those of historic and intrinsic value. Final reports from these
audits were not issued during the reporting period, and they may impact management challenges.

1.      Electronic Records Archives
NARA’s mission with the Electronic Records Archives (ERA) is to build a system accommodating the
government’s vast amounts of electronic records stored in past, present, and future formats. The
challenge is to deliver and maintain a functional system for preserving and providing access to our
nation’s electronic records for as long as needed. Electronic records are vital to how our government
works, and their preservation through the ERA will define what information future generations will be
able to access and use. However, the ERA Program has experienced delivery delays, budgeting
problems, and contractor staffing problems. Initial Operating Capacity (IOC) for the ERA Program was
delayed from September 2007 until June 2008, and even then program functions available at IOC were
less than the original requirements. Also, the component to handle all White House records, the
Executive Office of the President (EOP) System, was separated out due to delays, and pursued down a
separate line of development. The success of this mission-critical program is uncertain. NARA staff
was not able to clearly define what the ERA Program would be able to do, or what functions it would
provide to NARA, when the program was scheduled to reach Full Operating Capability in 2012.

In August 2010, OMB placed the ERA Program on its high-priority list of 26 high-risk IT projects
selected from across the Federal government. The major problems NARA must remedy for ERA are the
lack of detailed plans for the final two increments, low usage of the system, and need for improved
strategic planning. NARA’s actions planned to correct these problems include preparing a detailed plan
that focuses on accelerated user adoption of the ERA System, and updating ERA implementation plans
to reflect an end to system development on September 30, 2011. System development had been planned
to extend through March 2012. As a result of unknown funding levels and the decision by OMB to end
ERA development at the end of FY 2011, NARA is planning on deferring implementation of 20 percent
of the original system requirements. Agency officials reported that, as of the beginning of August 2010,
41 percent of the requirements have been implemented, and the plan is to have 80 percent implemented
by the end of FY 2011.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 25
October 1, 2010 to March 31, 2011
TOP TEN MANAGEMENT CHALLENGES

2.      Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby ensuring
people can discover, use, and learn from this documentary heritage. NARA provides continuing access
to the essential documentation of the rights of American citizens and the actions of their government.
The effective management of these records is key to accomplishing this mission. NARA must work
with Federal agencies to ensure the effective and efficient appraisal, scheduling, and transfer of
permanent records, in both traditional and electronic formats. The major challenge is how best to
accomplish this component of our overall mission while reacting and adapting to a rapidly changing
technological environment in which electronic records, particularly e-mail, proliferate. In short, while
the ERA system is intended to work with electronic records received by NARA, we need to ensure the
proper electronic and traditional records are in fact preserved and sent to NARA in the first place.

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 government-wide
initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance to agencies
in managing and transferring their permanent electronic records to NARA, in an increasing variety of
data types and formats. In June 2008, GAO recommended NARA develop and implement an approach
to provide oversight of agency electronic records management programs, to provide adequate assurance
that NARA guidance is effective and the agencies are following electronic records guidance. NARA, its
Government partners, and Federal agencies are challenged with determining how best to manage
electronic records and how to make ERM and e-Government work more effectively.

3.     Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers’ Financial
Integrity Act reporting process beginning in FY 2007. NARA’s Office of Information Services (NH)
conducted an independent assessment of the IT security program using the Program Review for
Information Security Management Assistance (PRISMA) methodology developed by the National
Institute for Standards and Technology (NIST) in FY 2007. The assessment stated NARA’s policy and
supporting procedures for IT security were weak, incomplete, and too dispersed to be effective. Twelve
of the 29 weaknesses identified during the assessment remain open.

IT security continues to present major challenges for NARA, including physical security of IT hardware
and technical vulnerabilities within our electronic systems themselves and how NARA operates them.
The confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. A GAO review conducted in 2010 identified
significant weaknesses in access controls, and other information security controls, impairing NARA’s
ability to ensure the confidentiality, integrity, and availability of its information systems. Each year,
risks and challenges to IT security continue to be identified. NARA must ensure the security of its data
and systems or risk undermining the agency’s credibility and ability to carry out its mission.

4.     Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more aggressively
inform and educate our customers about the services we offer and the essential evidence to which we

SEMIANNUAL REPORT TO CONGRESS                                                             Page 26
October 1, 2010 to March 31, 2011
TOP TEN MANAGEMENT CHALLENGES

can provide access. Unfortunately, over half of NARA’s textual holdings have not been processed to
allow efficient and effective access to these records. To meet its mission, NARA must work to ensure it
has the processes and resources necessary to establish intellectual control over this backlog of
unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate access
to information on-line, will be to provide such access to records created digitally (i.e., “born digital”)
and to identify those textual records most in demand so they can be digitized and made available
electronically. NARA’s role in ensuring the timeliness and integrity of the declassification process of
classified material held at NARA is also vital to public access.

5.     Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records to
meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to ensure its
own facilities, as well as those used by other Federal agencies, are in compliance with these regulations;
and effectively mitigate risks to records which are stored in facilities not meeting these new standards.

6.     Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older
daily and face degradation associated with time. This affects both traditional paper records, and the
physical media that electronic records and audio/visual records are stored on. In FY 2006 NARA
downgraded preservation from a material weakness under the Federal Managers’ Financial Integrity Act
reporting process to a reportable condition. However, in FY 2010, preservation was once again elevated
to a material weakness. NARA should be commended for taking this step, but much work remains to be
done. Preserving and providing access to records is a fundamental element of NARA’s duties to the
country, and NARA cannot provide access to records unless it can preserve them for as long as needed.
The backlog of records needing preservation action continues to grow. NARA is challenged to address
this backlog and future preservation needs, including the data integrity of electronic records. The
challenge of ensuring NARA facilities meet environmental standards for preserving records (see OIG
Challenge #5) also plays a critical role in the preservation of Federal records.

7.     Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right equipment
and systems to accomplish NARA’s mission. Complex and high-dollar contracts require multiple
program managers, often with varying types of expertise. NARA is challenged with planning projects,
developing adequately defined requirements, analyzing and testing to support acquisition and
deployment of the systems, and providing oversight to ensure effective or efficient results within costs.
Currently, IT systems are not always developed in accordance with established NARA guidelines.
These projects must be better managed and tracked to ensure cost, schedule, and performance goals are
met.



SEMIANNUAL REPORT TO CONGRESS                                                              Page 27
October 1, 2010 to March 31, 2011
TOP TEN MANAGEMENT CHALLENGES

GAO reports NARA has been inconsistent in its use of earned value management (EVM), a
project management approach providing objective reports of project status and early warning
signs of cost and schedule overruns. As a result, NARA did not fully implement practices
necessary to make effective use of EVM, limiting the reliability of its progress reports.

GAO also reported NARA does not document the results of briefings to its senior management
oversight group, and thus there is little evidence this body reviewed and approved the progress of
the ERA Program. There is also little evidence the group identified or took appropriate
corrective actions, or ensured such actions were taken and tracked to closure. Without adequate
oversight evaluating project progress, including documenting feedback and action items from
senior management, NARA will not be able to ensure ERA is being implemented at acceptable
cost and within reasonable and expected time frames.

Inconsistent use of key project management disciplines like Earned Value Management limits
NARA’s ability to effectively manage projects and accurately report on their progress.

8.     Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA reporting
process. Document and artifact theft is not a theoretical threat; it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety and
integrity of persons and holdings within our facilities. This is especially critical in light of the security
realities facing this nation and the risk our holdings may be pilfered, defaced, or destroyed by fire or
other man-made and natural disasters. Not only do NARA’s holdings have immense historical and
financial value, but we hold troves of national security information as well. Developments such as the
creation of the Holdings Protection Team and implementation of stricter access controls are welcome
additions to NARA’s security posture and should be commended. However, NARA must continually
strive to improve in this area.

9.     Contract Management and Administration
The GAO has identified Commercial Services Management (CSM) as a government-wide initiative.
The CSM initiative includes enhancing the acquisition workforce, increasing competition, improving
contract administration skills, improving the quality of acquisition management reviews, and
strengthening contractor ethics requirements. Effective contract management is essential to obtaining
the right goods and services at a competitive price to accomplish NARA’s mission. NARA is
challenged to continue strengthening the acquisition workforce and to improve the management and
oversight of Federal contractors. NARA is also challenged with reviewing contract methods, to ensure a
variety of procurement techniques are properly used in accordance with Federal laws and regulations.

10.     Strengthening Human Capital
The GAO has identified human capital as a government-wide high risk, explaining it is critical to
ensure agencies have the talent and skill mix they need to address their current and emerging
human capital challenges. In August 2009, NARA published its first Strategic Human Capital
Plan (SHCP), covering FYs 2009 through 2014. The SHCP discusses strategies for achieving

SEMIANNUAL REPORT TO CONGRESS                                                                 Page 28
October 1, 2010 to March 31, 2011
TOP TEN MANAGEMENT CHALLENGES

each of its five human capital goals. However, NARA has yet to develop an agency-wide
workforce plan. Based on NARA’s SHCP, the agency is supposed to develop and deploy an
integrated workforce plan enabling it to hire and retain “the right talent, at the right time, in the
right place,” by December 31, 2014. While NARA should be commended for some
accomplishments, such as implementing their 2010 Hiring Reform Action Plan, more work
remains to be done.

Recently the Partnership for Public Service ranked NARA very low in its “Best Places to Work
in the Federal Government” rankings. The rankings are based on employee responses to the
Federal Human Capital Survey (FHCS) administered biannually by the U.S. Office of Personnel
Management (OPM). In response, NARA created an Employee Viewpoint Survey Task Force
and conducted a survey to gather feedback and ideas. This information is being used to help
transform NARA and address employee concerns during the current major reorganization.
NARA’s challenge is to adequately address its workforce’s concerns and assess its human capital
needs in order to effectively recruit, retain, and train people needed to achieve its mission, both
now and in the future.




SEMIANNUAL REPORT TO CONGRESS                                                                  Page 29
October 1, 2010 to March 31, 2011
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS

          AMENDED, AND OTHER LAWS

REQUIREMENT            SUBJECT                                             PAGE(s)

Section 4(a)(2)        Review of legislation and regulations               6, 9

Section 5(a)(1)        Significant problems, abuses, and deficiencies      2 – 4, 13 – 18,
                                                                           19 – 22

Section 5(a)(2)        Significant recommendations for corrective action   2 – 4, 13 – 18

Section 5(a)(3)        Prior significant recommendations unimplemented     35

Section 5(a)(4)        Summary of prosecutorial referrals                  32 – 33

Section 5(a)(5)        Information or assistance refused                   35

Section 5(a)(6)        List of reports issued                              33

Section 5(a)(7)        Summaries of significant reports                    2 – 4, 13 – 18

Section 5(a)(8)        Audit Reports—Questioned costs                      34

Section 5(a)(9)        Audits Reports—Funds put to better use              35

Section 5(a)(10)       Prior audit reports unresolved                      35

Section 5(a)(11)       Significant revised management decisions            35

Section 5(a)(12)       Significant revised management decisions            35
                       with which the OIG disagreed

P.L. 110-181           Annex of completed contract audit reports           34

P.L. 111-203           Reporting on OIG peer review                        10




SEMIANNUAL REPORT TO CONGRESS                                                     Page 30
October 1, 2010 to March 31, 2011
REPORTING REQUIREMENTS

STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                        46
        Investigations pending at beginning of reporting period                          29
        Investigations opened this reporting period                                      8
        Investigations closed this reporting period                                      19
        Investigations carried forward this reporting period                             23
Categories of Closed Investigations
        Fraud                                                                            1
        Conflict of Interest                                                             0
        Contracting Irregularities                                                       4
        Misconduct                                                                       6
        Larceny (theft)                                                                  3
        Other                                                                            5
Investigative Results
        Cases referred – accepted for prosecution                                        1
        Cases referred – declined for prosecution                                        2
        Cases referred – pending prosecutive decision                                    1
        Arrest                                                                           0
        Indictments and informations                                                     0
        Convictions                                                                      2
        Fines, restitutions, judgments, and other civil and administrative recoveries    4
        NARA holdings recovered                                                         1,152
Administrative Remedies
        Employee(s) terminated                                                           0
        Employee(s) resigned in lieu of termination                                      2
        Employee(s) suspended                                                            0
        Employee(s) given letter of reprimand or warnings/counseled                      3
        Employee(s) taking a reduction in grade in lieu of administrative action         0
        Contractor (s) removed                                                           1

        Individual(s) barred from NARA facilities                                        2


SEMIANNUAL REPORT TO CONGRESS                                                            Page 31
October 1, 2010 to March 31, 2011
REPORTING REQUIREMENTS

                       SUMMARY OF PROSECUTORIAL REFERRALS
                                       Requirement 5(a)(4)
Accepted for Prosecution

Harassing Phone Calls
A NARA employee received multiple threatening phone calls from an individual. The subject
was contacted but refused to stop making the calls. The local jurisdiction accepted the case for
prosecution and the subject was subsequently arrested, but failed to show for her court
appearance. She was found guilty in abstentia and an arrest warrant was issued. Upon her arrest,
the subject was placed in pretrial confinement. Because her pretrial confinement reached an
equivalent duration of the statutory maximum in the local jurisdiction, the judge dismissed the
case.

Misconduct at Presidential Library Gift Shop
When there was a shortage of funds from a Presidential Library gift shop cash register, the gift
shop supervisor failed to notify library management and asked staff to contribute personal funds
to cover the shortage. An investigation substantiated theft was occurring at the gift shop and a
subject, not the supervisor, was identified. The subject ultimately confessed to theft, and the
case was accepted for prosecution by the local district attorney’s office. Both the subject
employee and the supervisor were reprimanded.

Credit Card Theft
A NARA employee reported the theft of personal credit cards on NARA premises. While the
theft did occur, it could not be determined it took place on NARA property. Two subjects were
arrested for using the stolen credit cards. The case was accepted for prosecution by the local
jurisdiction.

Stolen NARA records
A former NARA employee is alleged to have stolen multiple NARA records while employed at
the Archives. Many of these records were recovered during the reporting period. The case has
been accepted for prosecution by the jurisdictional Assistant United State Attorney. The
investigation remains open and ongoing.

Declined for Prosecution

Stolen Microfilm
A NARA employee inappropriately removed 152 microfilm rolls from NARA and stored them
in an assigned personal locker. The subject confessed to taking the microfilm, as well as two
NARA ledgers. The case was declined for criminal prosecution by the jurisdictional Assistant
United States Attorney. The subject was placed on administrative leave and subsequently
resigned in lieu of further administrative action.

Altered Lincoln Record
A researcher, known to have accessed a particular Lincoln pardon confessed to altering the date
of the pardon accompanying Lincoln’s signature. The case was declined for criminal
prosecution because the act occurred outside of the statute of limitations for this offense. The
researcher was barred from NARA facilities.

SEMIANNUAL REPORT TO CONGRESS                                                            Page 32
October 1, 2010 to March 31, 2011
        REPORTING REQUIREMENTS

        Pending Prosecutorial Determination

        Grand Jury Secrecy and Record Recovery
        Potential grand jury and other federal records were inappropriately donated to an institution
        outside of the federal government more than 30 years ago. These records were brought to
        NARA’s attention by a researcher doing work on the particular subject matter at the outside
        institution. The case was referred to the Department of Justice due to the potential of exposure
        of grand jury information. NARA archivists reviewed the material and negotiation of terms for
        the return of the material are underway.


                                       LIST OF REPORTS ISSUED

                                               Requirement 5(a)(6)

Report      Title                                   Date         Questioned    Unsupported      Funds Put to
No.                                                              Costs         Costs            Better Use
11-01       Audit of NARA’s Movement of
                                                    11/03/2010        0               0               0
            Freight Shipments
11-02       Clifton Gunderson LLP Network
            Vulnerability Assessment and            11/08/2010        0               0               0
            Penetration Testing
11-03       Audit of NARA’s Oversight of
                                                    02/16/2011        0               0            $434,589
            Selected Grantees’ Use of Grant Funds
11-04       Cotton & Company’s NARA FY 2010
            Financial Statements Independent        11/26/2010        0               0               0
            Audit Report
11-05       Audit of NARA’s Security Guard
                                                    02/18/2011        0               0               0
            Contract for AI and AII
11-06       Audit of the NARANET Server
                                                    11/30/2010        0               0               0
            Upgrade Project
11-07       Audit of NARA’s Photocopier
                                                    03/22/2011        0               0               0
            Security
11-09       Follow-Up Audit of NARA’s Work-
                                                    01/31/2011        0               0               0
            At-Home System
11-10       Audit of the Controls over
            Inappropriate Personal Use of the       03/09/2011        0               0               0
            Internet at NARA
11-11       System Review Report on the
            Appalachian Regional Commission’s
                                                    03/18/2011        0               0               0
            Office of Inspector General Audit
            Organization




        SEMIANNUAL REPORT TO CONGRESS                                                             Page 33
        October 1, 2010 to March 31, 2011
REPORTING REQUIREMENTS

                   AUDIT REPORTS WITH QUESTIONED COSTS
                                      Requirement 5(a)(8)

                                           Number of               DOLLAR VALUE
Category                                                       Questioned          Unsupported
                                            Reports
                                                                 Costs                Costs

A. For which no management decision
                                                1                $27,159              $27,159
   has been made by the commencement
   of the reporting period
B. Which were issued during the
                                                0                   0                    0
   reporting period
   Subtotals (A + B)                            1                $27,159              $27,159
C. For which a management decision has
                                                0                   0                    0
   been made during the reporting period
   (i) dollar value of disallowed cost          0                   0                    0
   (ii) dollar value of costs not
                                                0                   0                    0
   disallowed
D. For which no management decision
   has been made by the end of the              1                $27,159              $27,159
   reporting period
E. For which no management decision
                                                1                $27,219              $27,159
   was made within 6 months



            ANNEX ON COMPLETED CONTRACT AUDIT REPORTS

Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
information on completed contract audit reports containing significant audit findings be included
as an annex to this report. While the OIG completed audits on the ERA and other contracts
during this period, they were generally program audits as opposed to contract audits, and the
DCAA audits of the ERA program this period do not rise to the level of Section 845
requirements.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 34
October 1, 2010 to March 31, 2011
REPORTING REQUIREMENTS

             AUDIT REPORTS WITH RECOMMENDATIONS THAT

                     FUNDS BE PUT TO BETTER USE

                                       Requirement 5(a)(9)



             CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                        0                            0
   the reporting period
B. Which were issued during the reporting
                                                           1                       $434,589
   period
   Subtotals (A + B)                                       1                       $434,589
C. For which a management decision has
                                                           0                            0
   been made during the reporting period
   (i) dollar value of recommendations
                                                           0                            0
        that were agreed to by management
        Based on proposed management
                                                           0                            0
        action
        Based on proposed legislative
                                                           0                            0
        action
   (ii) dollar value of recommendations
        that were not agreed to by                         0                            0
        management
D. For which no management decision has
   been made by the end of the reporting                   1                       $434,589
   period
E. For which no management decision was
   made within 6 months of issuance                        0                            0




                             OTHER REQUIRED REPORTS


REQUIREMENT                                 CATEGORY                               SUMMARY
5(a)(3)                   Prior significant recommendations unimplemented        None
5(a)(5)                   Information or assistance refused                      None
5(a)(10)                  Prior audit reports unresolved                         None
5(a)(11)                  Significant revised management decisions               None
5(a)(12)                  Significant revised management decisions with which    None
                          the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                 Page 35
October 1, 2010 to March 31, 2011
